    GENERAL SERVICES ADMINISTRATION
       OFFICE OF INSPECTOR GENERAL
                      

                                               
                      
                      


AUDIT SURVEY OF THE HSPD-12 BILLING PROCESS
      REPORT NUMBER: A100136/Q/F/P11001
              OCTOBER 27, 2010
                      
                      
              u.s. GENERAL SERVICES ADMINISTRATION
              Office of Inspector General


October 27,2010


MEMORA DUM FOR:              STEVEN 1. KEMPF
                             COMMISSIONER, FEDERALtyQUISITION SERVICE (Q)

FROM:                        CAROLYN PRESLEY- DOSS          f\1J1,U        lCM           -JIrYJ
                             DEPUTY ASSISTANT INSPECTOR GE RAL FOR
                             FINANCE AND INFORMATION TECHNOLOGY AUDITS (lA-F)

SUBJECT:                     Audit Survey of the HSPD-12 Billing Process
                             Audit Report Number: AI00136/Q/F/PII001

During fiscal year 2010, the Office of Inspector General's (OIG) Acquisition Programs Audit
Office (lA-A) performed a Review of Controls within the Federal Acquisition Service's (FAS)
Office of Integrated Technology Services, Office of Infrastructure Optimization's Homeland
Security Presidential Directive-I2 (HSPD-12) Program, and identified concerns over the HSPD-12
billing process. Consequently, the Finance and Information Technology Audit Office (lA-F) was
asked to perform additional follow-up work to determine if internal controls over the HSPD-12
billing process are adequate and operating effectively. This memorandum presents the results of
our survey work on our Review ofthe HSPD-12 Billing Process.

Objective. Scope and Methodology

The objective of the review was to determine if there were any weaknesses in the HSPD-12 billing
process during our period of review.

During the Survey Phase, the JA-F reviewed regulations and guidance pertinent to the HSPD-12
billing process; contacted and met with appropriate staff to gain an understanding of the process;
developed a cycle memo and conducted walkthroughs; reviewed Standard Operating Procedures'
and reviewed the reconciliation process performed by the Managed Service Office (MSO) and the
GSA Office of the Controller. The scope of our audit work included HSPD-12 invoices that were
issued to customer agencies from October 2009 to April 2010. We conducted our survey work
from March 2010 to August 2010. The survey work efforts were perforn1ed in accordance with the
generally accepted government accounting standards (GAGAS) and the survey did not assess the
effectiveness of the program's management control structure.




                            Federal Recycling Program   .3
                          1800 F Street, NW, WashIngton, DC 20405-0002
                                                             Printed on Recycled Paper
Background 

In April 2007, the MSO entered into a contract with Electronic Data Systems, Inc. (EDS) to
provide a shared/central fee-based service of personnel identification management to the federal
government’s employees and its contractors. The MSO currently has 79 customer agencies within
the federal government system, and its core services include the issuance and maintenance of the
HSPD-12 cards. To participate and receive services under the HSPD-12 program, each customer
agency is required to sign an Interagency Agreement (IA) with the MSO.

In addition, the MSO is responsible for processing HSPD-12 customer billings. Specifically, the
MSO reviews and monitors EDS invoices1; prepares detailed invoices for customer agencies; and
prepares a monthly Intra-governmental Payment and Collections (IPAC) summary for the GSA
Office of the Controller for processing. The Office of the Controller is responsible for processing
IPAC transactions on behalf of the MSO.


HSPD-12 Billing Process

The billing process begins when the MSO receives invoices from EDS. There are two invoices that
are sent to the MSO: (1) a public voucher and (2) a detailed billing listing of products and services
at cost and at markup. Once these invoices are received, the MSO reconciles the detailed listing to
the public voucher to ensure that they are mathematically correct and are in agreement.
Furthermore, the MSO ascertains whether the markup percentages included on the detailed billing
listing are correct2.

If there are discrepancies between the public voucher and the detailed billing listing, the MSO
contacts EDS to resolve the discrepancies. If there are no discrepancies, the MSO will modify the
data so that the EDS data is compatible with the MSO’s Management Reporting Tool (MRT). The
billing data is then uploaded into MRT. Once it is uploaded, the MSO ensures that the markup fees
are correct.

The MSO also maintains an internal fund tracking spreadsheet to make sure the customer agency
has enough funding available in order to continue receiving services under the program. If the
funding level is anticipated to go below 50% within the near future, the MSO will notify the
customer and request additional funding. To obtain additional funding, an addendum to the
existing IA will have to be agreed upon, signed, and resubmitted to the MSO.
1
    EDS Invoices are billed two months in arrears.
2
 The MSO informed EDS that it was going to increase its markup percentage; as a result, EDS started to apply the new
markup percentage on their invoices. However, the MSO subsequently decided not to increase the markup percentage,
and accordingly notified EDS. Although the MSO has made requests to EDS several times to correct the markup
percentage, as of August 20, 2010, EDS has not taken any action on this matter.


                                                         2
After verifying that the markup fees are correct and the agency has enough funding, the MSO
utilizes MRT to generate a detailed billing report and forwards it to the appropriate points of
contact within the finance and program departments at each customer agency. The MSO also
prepares a summary of all charges, on a monthly basis, by IA – an IPAC Summary – and forwards
it to the Office of the Controller to be input into the Office of IT Integration Management System
(OMIS) for processing.

Survey Results  

Results in Brief

Our survey work found weaknesses related to internal controls over the HSPD-12 billing process.
Specifically, we noted the following:

    • Invoices submitted by the contractor (EDS) do not include the proper markup percentages;

    • Separation of duties and routine supervisory reviews could improve the MSO’s billing
      process; and,

    • Instances of insufficient funding to cover HSPD-12 services that were already provided.


Survey Finding #1: Invoices submitted by the HSPD-12 contractor do not include the proper
markup percentages


During our discussions with MSO personnel, and during our review of invoices submitted by EDS,
we noted that the invoices do not include the correct markup percentages. Because the invoices are
submitted to the MSO with the incorrect markup percentages, the MSO’s workload is significantly
increased. Therefore, the risk for human-error in the billing process greatly increases as the MSO
attempts to rectify the issue by adjusting the percentages manually when uploading billing data into
MRT. According to the contractor’s statement of work, EDS is required to directly invoice GSA’s
MSO customer agencies for services rendered and to include the successful contractor’s contract
price, plus GSA’s indicated markup, on the invoice.

Survey Finding #2: Separation of duties and routine supervisory reviews could improve the
MSO’s billing process


During our survey, we noted that there was only one person, an external contractor hired by the
MSO, who processed customer billings on behalf of the MSO. Specifically, the external contractor
was the only person responsible for receiving EDS invoices; subsequently making standardization
and compatibility edits; and manually correcting the markup percentages for each customer agency.

                                                 3
The external contractor was also responsible for using MRT to generate invoices which were
ultimately forwarded to the customer agencies. Furthermore, we noted that the supervisor was not
consistently involved in reviewing the monthly billings processed by the external contractor on a
regular basis. Therefore, there is an absence of separation of duties and routine independent (or
supervisory) review within the MSO’s HSPD-12 billing process. According to the Government
Accountability Office’s Standards for Internal Controls in the Federal Government, segregation of
duties and independent (or supervisory) review are two of the key control activities that help reduce
the risk of error or fraud.

Survey Finding #3: Instances of insufficient funding to cover HSPD-12 services that were
already provided

Lastly, we noted that there were eight customer agencies that did not have sufficient funding for
services they had already received. In these instances, the MSO withheld the bill and did not
forward the IPAC information to the GSA Office of the Controller for processing until the funding
became available. Consequently, the GSA Office of Controller was not aware of the customer
agencies that had IAs with insufficient funding.

Additionally, for one of the aforementioned eight customer agencies, the MSO granted access
rights3 to its employees without verifying to see if the corresponding IA for the agency was signed.
In the case of the other seven customer agencies, the financial addendums (i.e., Interagency
Agreement Amendments) that were needed to obtain additional funding were not signed in a timely
manner (i.e., additional funding was not received before the bill is due for processing in OMIS).
The MSO explained that services were provided to the customer agencies that did not have
adequate funding to prevent suspension of the HSPD-12 card.

Most importantly, we noted that the Office of the Controller did not perform formal and scheduled
reconciliations between MRT and OMIS. According to the MSO and the Office of the Controller,
any discrepancies were handled informally for specific IAs, on an as needed basis, during the year.
However, in order to assure better internal control, the Office of the Controller established a
schedule to perform the reconciliations on a monthly basis starting in June 2010.

Conclusion 
During our survey work, we noted weaknesses in the internal controls over the HSPD-12 billing
process. Specifically, we noted that the contractor hired to provide HSPD-12 services on behalf of
the program does not provide billing data with the correct markup percentages. In addition,
implementing separation of duties and more consistent supervisory reviews could improve the
HSPD-12 billing process within the MSO, in addition to formally documented and independently


3
  Access rights granted to employees at customer agencies are for the purposes of processing HSPD-12 access card
requests.


                                                         4
reviewed reconciliations. We also noted eight instances in which there was insufficient funding to
cover HSPD-12 services that were already provided to customer agencies.

Based on our survey work, we concluded that these conditions exist because billing data received
from EDS, the HSPD-12 service provider, is not accurate, and because the MSO does not have
written standard operating procedures for the HSPD-12 billing process. Likewise, at the time of
our survey, the Office of the Controller did not have any written standard operating procedures for
the reconciliations performed between the two systems, MRT and OMIS, used to manage the
billing process.

Recommendation 
We recommend that FAS, in conjunction with the MSO and the GSA Office of the Controller,
work together to improve the billing process over the HSPD-12 program. Specifically, we
recommend that:

   •   the MSO continues to be assertive in its efforts to insist that EDS update its billing
       invoicing system to include the proper markup percentages for services provided to
       customer agencies;

   •   FAS, the MSO, and the Office of Controller collaboratively ensure that reconciliations are
       routine, formally documented, and independently reviewed; and,

   •   the MSO formally document and improve its monitoring procedures for ensuring that
       sufficient funding is secured (available) for customer agencies prior to services being
       provided.

By addressing these areas of concern, management can further ensure a more efficient and effective
HSPD-12 billing process.

Management’s Response 
In a response dated October 8, 2010, FAS stated its concurrence with the three recommendations
issued by the OIG, and will begin creating action plans to address the recommendations.
Management’s written comments to the draft report are included in Appendix A.

Management Controls 
The objective of our survey work was to determine if there were any weaknesses in the HSPD-12
billing process during our period of review. As part of our survey, we determined that internal
controls over the HSPD-12 billing process could be improved.              We have included
recommendations in this report to address identified control issues.




                                                5
We would like to thank FAS for the courtesies extended to us during our review. If you have any
questions regarding this report, please do not hesitate to call Porsha Pickett-Brower or me, at 202-
357-3620.




J~~Y_D~~J~
Deputy Assistant Inspector General for
Finance and Information Technology Audits (lA-F)




                                                 6
                          APPENDIX A - MANAGEMENT'S RESPONSE



                                                             GSA Federal Acquisition Service




October 8,2010


MEMORANDUM FOR:             JEFFREY C. WOMACK
                            DEPUTY ASSISTANT INSPECTOR GENERAL
                            FOR FINANCE AND ADMINISTRATIVE AUDIT OFFICE
                            (JA-F)

FROM:                       STEVEN J. KEMPF
                            COMMISSIONER
                            FEDERAL ACQUISITION SER

SUBJECT:                    GSA Draft Report, "Audit Survey of the HSPD-12 Billing
                            Process" (Report Number A100136), dated October 7,2010



Thank you for the opportunity to provide comments on the discussion draft, and for
taking our comments into consideration when publishing your draft report. FAS concurs
with the three recommendations and will begin creating action plans to address the
recommendations. Concurrences are included in the official file or by the
correspondence received from the program offices which are attached to the official file.

Please call me at (703) 605-5400 if you have any questions. Your staff may contact
Kirk Martinelli at (703) 605-5432 or kirk.martinelli@gsa.gov for additional information.


cc:   Mr. Theodore R. Stehney
      Assistant Inspector General
      for Auditing (JA)




                                                              U.S. General Services Administration
                                                              2200 Crystal Drive
                                         A-1                  Arlington, VA 20406-0003
                                                              WWW.gsa.gov
                       APPENDIX A – MANAGEMENT’S RESPONSE

  Federal Acquisition Service Comments on the OIG Draft Report: “Audit Survey of the
                          HSPD-12 Billing Process” (A100136)



General Comments


Since inception of the program, and based on lessons learned in the newly established
business process, the FAS MSO has consistently reviewed and modified policies and
procedures on an ongoing basis. The modifications have led to the tightening of existing, as
well as the establishment of new internal controls. The FAS MSO, in conjunction with the Office
of the Controller, has established standard operating procedures for the reconciliation of the
MRT and OMIS systems used to support the billing process. This reconciliation was required to
be done semi-annually by the GSA Chief Financial Officer; however, the FAS MSO and the
Office of the Controller have elected to perform this operation on a monthly basis.

In addition, in recognition of the OIG recommendation, the FAS MSO has established a formal
process for the independent review of the monthly billing before submission to the Office of the
Controller for processing.

Recommendation No. 1
The MSO continue to be assertive in its efforts to insist that EDS update its billing
invoicing system to include the proper markup percentage for services provided to
customer agencies.

FAS concurs.



Recommendation No. 2
FAS, the MSO, and the Office of the Controller collaboratively ensure that reconciliations
are routine, formally documented, and independently reviewed.

FAS concurs.



Recommendation No. 3
The MSO formally document and improve its monitoring procedures for ensuring the
sufficient funding is secured (available) for customer agencies prior to services being
provided.

FAS concurs.




                                              A-2
                 AUDIT SURVEY OF THE HSPD-12 BILLING PROCESS
                       REPORT NUMBER: A100136/Q/F/P10001



                           APPENDIX B - REPORT DISTRIBUTION


                                                                   Copies

Commissioner, Federal Acquisition Service (Q)                      3

Internal Control and Audit Division (BEI)                          1

Inspector General, Office of the Inspector General (J)             1

Deputy Inspector General, Office of the Inspector General (JD)     1

Assistant Inspector General for Auditing (JA)                      1

Director, Audit Planning, Policy and Operations Staff (JAO)        1

Assistant Inspector General for Investigations (JI)                1

Deputy Assistant Inspector General for Acquisition Audits (JA-A)   1




                                                B-1
